            Office of Inspector General




September 30, 2004

DON PETERSON
MANAGER, KENTUCKIANA DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Kentuckiana District
         (Report Number DR-AR-04-012)

This is one of a series of audit reports on the Self-Service Vending Program in the
Eastern Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Kentuckiana District (Project Number
04YG014DR004). The information in this district report will be included in a report to
the Eastern Area Vice President.

                                               Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending
machines (27,000 self-service postal centers and 3,000 other types of
vending equipment) that generated over $1.9 billion in revenue during fiscal years
(FY) 2001 through 2003. During FY 2003, the Eastern Area had 4,242 pieces of
vending equipment that generated over $103 million in revenue, of which the
Kentuckiana District maintained 10 percent (437) of the total area machines that
generated 10 percent ($10.1 million) of the total area vending revenue. During the
first quarter of FY 2004, the Eastern Area had 4,443 pieces of vending equipment that
generated over $27.9 million in revenue, of which the Kentuckiana District maintained
10 percent (441) of the total area machines that generated over 10 percent
($2.6 million) of the total area vending revenue.1




1
 During the first quarter of FY 2004, the Eastern Area had 201 additional vending machines and the Kentuckiana
District had 4 additional vending machines during the first quarter of FY 2004.


    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
                                             Restricted Information
Self-Service Vending Program                                                            DR-AR-04-012
 Kentuckiana District


                           Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 437 vending machines operating in the
Kentuckiana District during FY 2003, 642 were classified as obsolete based on Postal
Service guidance, while the remaining 373 were classified as current equipment. For
the first quarter of FY 2004, 441 vending machines were operating in the Kentuckiana
District, of which 683 were classified as obsolete, and the remaining 373 were classified
as current equipment.

During our audit, we visited Postal Service facilities and interviewed managers and
employees, reviewed documentation and applicable policies and procedures, and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FYs 2002 through 2003 and the first quarter of FY 2004 to identify obsolete
equipment and equipment that did not meet the minimum revenue requirements.4
Although we relied on data obtained from VESS, we did not test the validity of the data
and controls over the system.

Audit work associated with the Kentuckiana District was conducted from March through
September 2004 in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                      Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
2
  This number includes one currency changer machine, which does not generate revenue.
3
  This number includes one currency changer machine, which does not generate revenue.
4
  Obsolete equipment was not included in the minimum revenue analysis.



                                                      2
Self-Service Vending Program                                                                           DR-AR-04-012
 Kentuckiana District


revenue requirements and the districts may have missed revenue opportunities of
approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations and
actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Kentuckiana District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Kentuckiana District
officials could increase revenue opportunities by redeploying equipment that does not
meet minimum revenue requirements. Further, Kentuckiana District officials could
possibly reduce maintenance and repair costs by discontinuing the use of obsolete
equipment. However, our physical observation of vending machines in the Kentuckiana
District indicated that overall the machines were operational and easily accessible, with
one exception.

Redeployment of Vending Equipment

Kentuckiana District officials could improve their process for redeploying vending
equipment that does not meet Postal Service minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 55 percent (207 of 373) of the vending machines did not meet the
minimum revenue requirements. Vending equipment sales were approximately
$2.2 million, which was significantly less than the minimum revenue requirement of
$3.9 million. As a result, the Kentuckiana District may have missed revenue
opportunities of approximately $500,000 to $1.7 million by not redeploying this
equipment.5

Additionally, during the first quarter of FY 2004, our review of vending equipment
revenue reports indicated that 53 percent (196 of 373) of the vending machines did not
meet the minimum revenue requirements. Vending equipment sales were
approximately $466,000, which was significantly less than the minimum revenue
requirement of $834,000. As a result, the Kentuckiana District may have missed
revenue opportunities of approximately $368,000 by not redeploying this equipment.



5
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $500,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $1.7 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          3
Self-Service Vending Program                                                                           DR-AR-04-012
 Kentuckiana District


One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate revenue to meet the minimum requirement, the
equipment must be considered for redeployment. If revenue does not meet the
minimum requirement in three to six accounting periods, the district retail office should
place the equipment on a list for redeployment; notify any office where changes will be
made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials took action to redeploy one vending machine that did not meet minimum
revenue requirements during FY 2003.6 For the remaining 206 vending machines,
district officials did not initiate any redeployment action. Additionally, during the
first quarter of FY 2004, district officials did not initiate any redeployment action for the
196 underperforming machines. District officials did not initiate redeployment action for
the underperforming vending machines during FY 2003 and the first quarter of FY 2004
because the Self-Service Vending Program was not considered a high priority and
limited resources were allocated to the program. Work efforts were directed to higher
priorities such as automated postal centers and other retail products. By not taking
action to redeploy underperforming equipment, the district could miss revenue
opportunities during the remainder of FY 2004.

We discussed the results with Kentuckiana District officials and they agreed that they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans were
being made to reassess vending locations based on an analysis of vending operations
and receipt of 32 automated postal centers.7




6
  Our review of the revenue reports for the first quarter of FY 2004 indicated that this machine did not meet minimum
revenue requirements.
7
  Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.



                                                          4
Self-Service Vending Program                                                                  DR-AR-04-012
 Kentuckiana District


Recommendation

We recommend the Manager, Kentuckiana District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.

Management’s Comments

Management stated that the Kentuckiana District will follow the Eastern Area’s new
guidance and will comply with Postal Handbook 102 to review within three to six
accounting periods the vending machine performances. Management will initiate action
following the evaluation. The Eastern Area expects to finalize its action plan by
December 2004 with implementation beginning in January 2005. The Kentuckiana
District removed eight underperforming vending machines in 2003. In 2004, the district,
has removed/reallocated and reassessed vending locations based on an analysis of
vending performance, receipt of 32 automated postal centers, and removal operating
procedures for APC sites. Management comments, in their entirety, are included in the
appendix of this report.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management actions
taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Kentuckiana District officials continued to use 63 obsolete machines and
possibly incurred maintenance and repair expenses, even though Postal Service policy
discontinued the maintenance and repair support for the machines in June 2000.8 Our
review of vending equipment revenue reports indicated that 77 percent (49 of 63) of the
machines during FY 2003 and 72 percent (51 of 67) of the machines during the first
quarter of FY 2004 did not meet minimum revenue requirements.

District officials stated that they continued to use and maintain the obsolete equipment
because of the potential adverse impact on customer service since replacement
equipment was not available. As a result, during FY 2003 and the first quarter of
FY 2004, the district possibly incurred maintenance and repair expenses that may have
exceeded the revenue generated by continuing to operate and maintain the obsolete
machines. We were unable to determine the amount of repair and maintenance

8
  This policy supplements Maintenance Management Order, MMO-018-96, June 21, 1996, Discontinuance of Support
for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models of
vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.



                                                     5
Self-Service Vending Program                                                                      DR-AR-04-012
 Kentuckiana District


expenses associated with the machines because the Postal Service does not capture
the data for each machine.9

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. District officials indicated that plans will be made to replace the obsolete
machines when the new automated postal centers are deployed to the district locations.

Recommendation

We recommend the Manager, Kentuckiana District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.


Management’s Comments

Management stated that beginning in January 2005, the Eastern Area will identify
obsolete machines by performance cluster. Each cluster will consider alternatives and
complete necessary actions to eliminate repair and maintenance costs for the obsolete
equipment. After identification of obsolete vending equipment, all equipment performing
at 50 percent or more below the minimum revenue requirement will be targeted for
destruction. Vending equipment performing between 50-100 percent of the requirement
will need a written justification to remain in place. Kentuckiana District officials have
submitted disposition requests for specific pieces of obsolete equipment and are waiting
on final instructions for the salvage and storage of parts to be used for the repair and
maintenance of other compatible equipment.




9
    We plan to address this issue in a capping report to Postal Service headquarters officials.



                                                             6
Self-Service Vending Program                                                  DR-AR-04-012
 Kentuckiana District


Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management actions
taken or planned should correct the issues identified in the finding.

Physical Observation of Vending Machines

Our physical observation of vending machines in the Kentuckiana District indicated that
overall the machines were operational and easily accessible, with one exception.
Specifically, 95 percent (19 of 20) of the machines judgmentally selected for review
were operating properly and easily accessible. The remaining one machine had a
notice posted as being out of service in April 2004; however, the inoperable machine
was not listed in VESS as of May 2004. District officials indicated that the information
for the one machine was not listed in VESS due to an employee inaccurately completing
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log.10 By not
properly completing PS Forms 8130, Postal Service managers have no means of
ensuring vending machines are inoperable or in need of repair, potentially resulting in a
loss of revenue.

The VESS is a nationwide computerized reporting system for the Self-Service Vending
Program, which is used as a management tool for real-time tracking of vending cost
in relation to sales. Data maintained in the VESS database is generated from
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log. Each
employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

Recommendation

We recommend the Manager, Kentuckiana District, direct the Retail Manager to:

3. Require the employee to accurately complete a PS Form 8130, Vending Equipment
   Sales and Service Daily Activity Log, for the machine, detailing the inoperable status
   for the machine, and consider retraining employees to accurately complete the
   forms.

Management’s Comments

Management stated that guidance was provided to servicing personnel reminding
personnel to ensure that machines are reported on the VESS PS Form 8130 when out
of service. Additionally, the Kentuckiana District publishes a monthly newsletter which
publicizes and updates retail information including vending.




10
     We plan to conduct an audit on the accuracy of data in VESS.



                                                           7
Self-Service Vending Program                                                DR-AR-04-012
 Kentuckiana District



Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management actions
taken or planned should correct the issues identified in the finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you wish to
schedule an exit conference, have any questions, or need additional information, please
contact Debra D. Pettitt, Director, Delivery and Retail, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

cc: John A. Rapp
    Cheryl Alfred
    Ron Miller
    Steven R. Phelps




                                           8
Self-Service Vending Program                             DR-AR-04-012
 Kentuckiana District


                       APPENDIX. MANAGEMENT’S COMMENTS




                                    9
Self-Service Vending Program        DR-AR-04-012
 Kentuckiana District




                               10
Self-Service Vending Program        DR-AR-04-012
 Kentuckiana District




                               11
